APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
_______
ORLANDO CORDIA HALL,
Appellant,
v.
WILLIAM P. BARR, in his official capacity as U.S.
Attorney General, et al.,
Appellees.
_______
No. 20-5340
_______
1:20-cv-03184-TSC
_______
September Term, 2020
_______
Filed On: November 19, 2020
_______
On appeal from the United States District Court for
the District of Columbia
_______
Before: Millett, Pillard, and Rao, Circuit Judges.
_______

2a
JUDGMENT
_______
This appeal was considered on the record from the
United States District Court for the District of
Columbia and on the briefs filed by the parties. See
Fed. R. App. P. 34(a)(2); D.C. Cir. Rule 34(j). Upon
consideration of the foregoing, the emergency motion
for stay of execution, the response thereto, and the
reply, it is
ORDERED that the emergency motion for stay of
execution be denied. It is
FURTHER ORDERED AND ADJUDGED that
the district court’s November 16, 2020 order be
affirmed.
I
In July 2020, the Bureau of Prisons revised its
execution protocol to provide death-sentenced
inmates only 50 days’ advance notice of their
execution dates, instead of the 90 days’ notice
previously afforded by the protocol. Hall argues that
shortening the notice period violates substantive due
process, equal protection, and the Ex Post Facto
Clause of the Constitution, U.S. Const., Art. 1, § 9, cl.
3. None of those arguments succeeds.
First, the provision of 50 days’ notice did not deprive
Hall of substantive due process. The Federal Bureau
of Prisons’ execution protocol, which reduced the
government’s notice period from 90 to 50 days, is a
non-binding procedural rule that created no
substantive due process right to a particular period of
notice when an execution date is set. In re Federal
Bureau of Prisons’ Execution Protocol Cases, 955 F.3d
106, 112 (D.C. Cir. 2020); id. at 125 (Katsas, J.,

3a
concurring); id. at 144 (Rao, J., concurring); Bureau of
Prisons’ 2020 Execution Protocol at 4 (providing that
the protocol “does not create any legally enforceable
rights or obligations”). Hall has been on notice of his
death sentence since it was first imposed in 1995,
sustained on appeal in 1998, and certiorari review by
the Supreme Court denied in 1999. See United States
v. Hall, 152 F.3d 381 (5th Cir. 1998), cert. denied, 526
U.S. 1117 (1999). Nor has Hall identified any basis in
precedent or otherwise “deeply rooted in this Nation’s
history and tradition” for concluding that a particular
notice period is “implicit in the concept of ordered
liberty,” which is required to make out a violation of
substantive due process. Washington v. Glucksberg,
521 U.S. 702, 720-721 (1997) (formatting modified).
By regulation, the warden was to provide Hall with at
least 20 days’ notice of his execution date. 28 C.F.R.
§ 26.4(a). Hall does not deny that he received that
required notice.
Second, the provision of 50 days’ notice did not
deprive Hall of the equal protection of the laws. As
noted, Hall received more than the 20 days’ notice
required by federal regulation. 28 C.F.R. § 26.4(a).
The amendment of the execution protocol to provide
50 days’ notice likewise has applied prospectively and
evenhandedly to all inmates who have received
execution dates since its adoption. See Gov’t Br. 13,
27; J.A. 66 ¶ 12. Hall identifies no equal protection
principle or precedent that bound the federal
government, once it adopted internal guidance
anticipating a 90-day notice period, to adhere to that
same timeframe forever more. Instead, on this record,
application of the non-binding guidance that is in

4a
effect at the time an execution date is set fully
comports with the requirement of equal protection.
Third, the Ex Post Facto Clause stands as no barrier
to the provision of 50 days’ notice. The Ex Post Facto
Clause proscribes the retroactive imposition of a
“greater punishment[] than the law annexed to the
crime[] when committed.” Peugh v. United States,
569 U.S. 530, 533 (2013). Even assuming the Ex Post
Facto Clause applies in the context of a non-binding
notice provision like this, the protocol’s notice period
operated fully prospectively and did not alter Hall’s
imposed sentence of death. Moreover, Hall does not
deny that capital punishment was an available
sentence at the time he committed his crimes of
conviction, and he has not pointed to anything in the
law at the relevant time that required either a
particular execution date or 90 days of advance notice.
II
Hall separately argues the combination of the 50day notice period and the COVID-19 pandemic have
violated his due process right to pursue clemency. But
any “minimal procedural safeguards” the Due Process
Clause guaranteed to Hall’s clemency proceedings,
Ohio Adult Parole Auth. v. Woodard, 523 U.S. 272,
289 (1998) (O’Connor, J., concurring in part and
concurring in the judgment), have been satisfied. We
need not resolve the precise scope of any due process
protections here, because Hall has long had notice, the
opportunity, and the assistance of counsel to pursue
clemency. At the heart of Hall’s due process claim is
the assumption that he could not have conducted an
investigation and synthesized the information to
support his petition for clemency until his execution
date was set on September 30, 2020. Not so. While

5a
federal regulations set a deadline for submitting a
clemency petition of no later than 30 days after the
execution date is set, the starting line for Hall to
pursue clemency was after his “first petition” for
collateral relief under 28 U.S.C. § 2255 was
“terminated.” 28 C.F.R. § 1.10(b). Hall’s first Section
2255 petition was finally denied in 2007. United
States v. Hall, 455 F.3d 508, 510 (5th Cir. 2006), cert.
denied, 549 U.S. 1343 (2007). So Hall has had thirteen
years to develop his case for clemency relief.
Hall, in fact, filed for clemency in December 2016,
but then voluntarily withdrew it in January 2017. J.A.
64 ¶ 5. In addition, on October 30, 2020 – the deadline
for submitting a clemency application – Hall’s counsel
reached out to the Office of the Pardon Attorney to
obtain an extension to pursue clemency a second time.
J.A. 65 ¶ 7. The Office of the Pardon Attorney offered
(i) to treat that request as a clemency petition, (ii) to
permit Hall to supplement it with documentation over
the next fifteen days, and (iii) to allow an oral
presentation by counsel, noting that the Office had
been able to render a clemency recommendation in all
of the requests it had received from other applicants
during the pandemic before their execution dates. J.A.
65-66 ¶¶ 9, 11. But Hall’s counsel declined to pursue
that opportunity. Those two opportunities provided
Hall whatever clemency process may have been due to
him. This record also persuades us that throughout
these proceedings Hall has benefitted from the
representation of counsel sufficient to satisfy 18
U.S.C. § 3599.
III
Finally, Hall argues that, by providing the Bureau
of Prisons a role in the execution process, the

6a
execution protocol violates the Federal Death Penalty
Act’s requirement that a United States Marshal
“supervise implementation of the sentence[.]” 18
U.S.C. § 3596(a). This court has not yet definitively
resolved that statutory question. When this court first
considered this issue in April of 2020, Judge Katsas
rejected that argument on its merits. Federal Bureau
of Prisons’ Execution Protocol Cases, 955 F.3d at 124125 (Katsas, J., concurring). He explained that, under
the protocol, a United States Marshal must “oversee
the execution,” “direct which other personnel may be
present,” and order the commencement of the
execution process. Id. at 124. In addition, the
individuals “administering the lethal agents [act] at
the direction of the United States Marshal,” and the
Marshal is tasked with notifying the court once the
sentence has been carried out. Id. at 124-125. In Judge
Katsas’s view, those roles satisfied the statutory
requirement of supervision. However, neither of the
other two panel members resolved the merits of that
issue. Id. at 145-152 (Tatel, J., dissenting); id. at 145
(Rao, J., concurring) (concluding that the argument
was forfeited).
We need not resolve that argument here. Hall is
appealing the district court’s denial of a preliminary
injunction halting his execution. As a result, he must
demonstrate that he is “likely to succeed on the
merits” of that argument. Winter v. Natural Res. Def.
Council, Inc., 555 U.S. 7, 20 (2008). Given Judge
Katsas’s reasoning, it is debatable whether Hall has
demonstrated a likelihood of success on this claim.
But even if he does, he must also establish a likelihood
that
the
assertedly
improper
division
of
responsibilities between the United States Marshal

7a
and the Bureau of Prisons irreparably harms him. Id.
Hall, however, has made no argument as to how he is
prejudiced, let alone irreparably harmed, by the
United States Marshal not directly undertaking
additional aspects of the execution process. He makes
no argument that anything about his execution
process would change if his interpretation of the
Federal Death Penalty Act succeeded. For those
reasons, even assuming Hall has the better of the
statutory interpretation argument, he has not met the
burden of demonstrating a right to the extraordinary
relief of a preliminary injunction halting his
execution.
For the foregoing reasons, the judgment of the
district court denying a preliminary injunction is
affirmed, and the motion for a stay of execution is
denied.
Pursuant to D.C. Circuit Rule 36, this disposition
will not be published. The Clerk is directed to issue
the mandate forthwith to the district court.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

8a
APPENDIX B
_________
UNITED STATES COURT OF APPEALS FOR THE
DISTRICT OF COLUMBIA CIRCUIT
_______
ORLANDO CORDIA HALL,
Applicant,
v.
WILLIAM P. BARR, in his official capacity as U.S.
Attorney General, et al.,
Appellees.
_______
No. 20-5340
_______
1:20-cv-03184-TSC
_______
September Term, 2020
_______
Filed On: November 19, 2020
_______
MANDATE
_______
In accordance with the judgment of November 18,
2020, and pursuant to Federal Rule of Appellate
Procedure 41, this constitutes the formal mandate of
this court.

9a
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Daniel J. Reidy
Deputy Clerk

10a
APPENDIX C
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_______
Civil Action No. 20-cv-3184 (TSC)
_______
ORLANDO CORDIA HALL,
Plaintiff,
v.
WILLIAM P. BARR, ET AL.,
Defendants.
_______
MEMORANDUM OPINION
_______
Plaintiff Orlando Cordia Hall, an inmate on federal
death row, has filed this action to delay his November
19, 2020 execution. Though he was sentenced to death
in 1995, this court enjoined his execution pending
resolution of challenges brought by several federal
death row inmates to an earlier version of the Bureau
of Prisons’ (BOP) execution protocol. Having found
those claims obsolete given the BOP’s adoption of a
new protocol in 2019 (the 2019 Execution Protocol or
the Protocol), the court vacated the injunction barring
Plaintiff’s execution on September 20, 2020. Ten days
later, BOP noticed Plaintiff’s execution for November
19, 2020, thus providing him fifty days’ notice.

11a
Plaintiff argues that the timing of his execution,
particularly given the COVID-19 pandemic, deprives
him of meaningful access to, and representation in,
the clemency process in violation of his rights under
the Due Process Clause and 18 U.S.C. § 3599. He
further contends that the fifty-day notice violates his
rights under the Due Process Clause, the Ex Post
Facto Clause, and the Equal Protection Clause. He
also alleges that the 2019 Execution Protocol
constitutes ultra vires agency action in violation of the
Federal Death Penalty Act (FDPA), a claim the court
has already addressed and dismissed in the Execution
Protocol Cases litigation.
Before the court are Plaintiff’s motion for a
temporary restraining order and/or preliminary
injunction, (ECF No. 3), and Plaintiff’s emergency
motion for a hearing, (ECF No. 14). For the reasons
set forth below, Plaintiff’s motions will be DENIED.
I. BACKGROUND
Plaintiff was sentenced to death by the U.S. District
Court for the Northern District of Texas in October
1995 and is currently incarcerated at the United
States Penitentiary, Terre Haute. His conviction and
sentence were affirmed on direct appeal, and his
motion to vacate his sentence under 28 U.S.C. § 2255
was denied by both the District Court and the U.S.
Court of Appeals for the Fifth Circuit. Several years
later, based on intervening Supreme Court decisions,
Plaintiff sought permission to file a successive § 2255
petition to challenge his firearm conviction under 18
U.S.C. § 924(c). The Fifth Circuit rejected that request
late last month. See In re Hall, 2020 WL 6375718 (5th
Cir. Oct. 30, 2020).

12a
After Plaintiff’s initial unsuccessful § 2255 challenge
in 2007, he intervened in a pending civil action
brought in this court by other federal death row
prisoners challenging the BOP’s lethal injection
protocol. (Roane v. Gonzales, No. 05-cv-2337 (D.D.C.),
ECF No. 38.) The court thereafter entered a
preliminary injunction barring Plaintiff’s execution
and consolidated that case along with similar cases
brought by other federal death row prisoners into a
single action. (See generally Execution Protocol Cases,
No. 1:19-mc-145.) The injunction remained in place
from June 11, 2007 until September 20, 2020.
(Execution Protocol Cases, ECF No. 266.)
On October 30, 2020, thirty days after BOP noticed
Plaintiff’s execution date, Plaintiff’s counsel emailed
the Office of the Pardon Attorney and the White
House Counsel’s office, detailing the need for an
investigation and requesting additional time to
prepare Plaintiff’s clemency application given the
extraordinary conditions created by the COVID-19
pandemic. (Compl. ¶ 118; Compl. Ex. 11.) On
November 2, 2020, a staff member from the Office of
the Pardon Attorney at the Department of Justice
advised Plaintiff’s counsel that the office lacked the
authority to reprieve, withdraw, or reschedule an
execution date. (Compl. ¶ 120). Nevertheless, the staff
member indicated that the October 30 email could be
construed as a petition for commutation and that the
Pardon Attorney would be willing to hold a telephonic
hearing during the week of November 2. (See Compl.
Ex. 13.) Counsel for Plaintiff informed the Office of the
Pardon Attorney that such a request could not be
properly construed as a petition for commutation and
that agreeing to treat the request for an extension as

13a
a clemency petition may constitute a violation of
counsel’s professional obligations to Plaintiff. (Compl.
Ex. 12.) Accordingly, Plaintiff did not file a clemency
petition.
On November 3, 2020, Plaintiff filed a complaint and
motion for a temporary restraining order and/or a
preliminary injunction with this court.
II. DISCUSSION
The standards for a temporary restraining order and
a preliminary injunction are identical. See Wash.
Metro. Area Transit Comm’n v. Holiday Tours, Inc.,
559 F.2d 841, 843 (D.C. Cir. 1977). In considering
whether to grant the “extraordinary remedy” afforded
by injunctive relief, courts assess four factors: (1) the
likelihood of the plaintiff’s success on the merits, (2)
the threat of irreparable harm to the plaintiff absent
an injunction, (3) the balance of equities, and (4) the
public interest. Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7, 20, 24 (2008) (citations omitted); John Doe
Co. v. Consumer Fin. Prot. Bureau, 849 F.3d 1129,
1131 (D.C. Cir. 2017). The U.S. Court of Appeals for
the District of Columbia Circuit has traditionally
evaluated claims for injunctive relief on a sliding
scale, such that “a strong showing on one factor could
make up for a weaker showing on another.” Sherley v.
Sebelius, 644 F.3d 388, 392 (D.C. Cir. 2011). It has
been suggested, however, that a movant’s showing
regarding success on the merits “is an independent,
free-standing requirement for a preliminary
injunction.” Id. at 393 (quoting Davis v. Pension
Benefit Guar. Corp., 571 F.3d 1288, 1296 (D.C. Cir.
2009) (Kavanaugh, J., concurring)).

14a
A.

Inexcusable Delay

Defendants first argue that Plaintiff’s motion is
inexcusably delayed and could be denied on that basis
alone. (See ECF No. 15, Def. Opp’n at 3–4.) The
argument is not without merit. As the Supreme Court
has made abundantly clear, particularly in the death
penalty context, the “‘last-minute nature of an
application’ that ‘could have been brought’ earlier . . .
‘may be grounds for denial of a stay’” or other
equitable relief. Bucklew v. Precythe, 139 S. Ct. 1112,
1134 (2019) (quoting Hill v. McDonough, 547 U.S. 573,
584 (2006)). Plaintiff was notified of his execution on
September 30, but waited until November 3—a little
more than two weeks before his execution—to file suit.
Nevertheless, the court is unwilling to deny Plaintiff’s
motion on this basis. While the delay has certainly put
the parties and the court on a tight timeline to resolve
the motion, taking thirty days to file a new complaint
and accompanying motion for relief is not per se
unreasonable. Furthermore, many of the events
described in the Complaint occurred several days
before it was filed. (See, e.g., Compl. ¶¶ 118–21
(describing events occurring between October 30,
2020 and November 2, 2020).)
B.

Likelihood of Success on the Merits

Plaintiff first contends that the timing of his
November 19 execution deprives him of clemency
representation and access to the clemency process in
violation of his Fifth Amendment procedural due
process rights (Counts I and II), and his statutory
right to clemency representation pursuant to 18
U.S.C. § 3599 (Count III) (“the clemency claims”).
Next, he argues that the fifty-day execution notice
violates his Fifth Amendment substantive due process

15a
rights (Count IV), and inflicts a greater punishment
in violation of the Ex Post Facto Clause (Count V)
(“the notice claims”). Plaintiff also alleges that, in
providing only fifty days’ notice, Defendants
arbitrarily treated him differently from other
similarly situated inmates in violation of the Equal
Protection Clause (Count VII). Finally, Plaintiff
recycles an argument made in the Execution Protocol
Cases litigation, arguing that the 2019 Protocol
violates the FDPA (Count VI). Based on the record
before it, including the Supreme Court’s rulings in
other challenges to the 2019 Protocol, the court finds
that Plaintiff is unable to show a likelihood of success
on any of these claims.
1.

Clemency Claims

Plaintiff alleges that Defendants are violating his
procedural due process and statutory rights by
executing him in the middle of a pandemic, which has
made it impossible to meaningfully pursue clemency.
The argument raises issues that the court finds
troubling, but, ultimately, unlikely to succeed.
i.

Procedural Due Process

“The Fifth Amendment Due Process Clause protects
individuals from deprivations of ‘life, liberty, or
property, without due process of law.’” Atherton v.
D.C. Office of Mayor, 567 F.3d 672, 689 (D.C. Cir.
2009) (citing U.S. Const. amend. V). A procedural due
process violation “occurs when an official deprives an
individual of a liberty or property interest without
providing appropriate procedural protections. Liberty
interests arise out of the Constitution itself or ‘may
arise from an expectation or interest created by state
laws or policies.’” Id. (quoting Wilkinson v. Austin, 545
U.S. 209, 221 (2005)).

16a
At issue here is Plaintiff’s continued interest in life,
which he claims is burdened by his inability to have
meaningful access to the clemency process. (See ECF
No. 3-1, Pl. Mem. at 16– 17.) Notwithstanding an
impending execution, a death row inmate “maintains
a residual life interest, e.g., in not being summarily
executed by prison guards.” Ohio Adult Parole Auth.
v. Woodard, 523 U.S. 272, 281 (1998) (plurality
opinion) (Rehnquist, C.J.). Indeed, “[w]hen a person
has been fairly convicted and sentenced, his liberty
interest, in being free from such confinement has been
extinguished. But it is incorrect . . . to say that a
prisoner has been deprived of all interest in his life
before his execution.” Id. at 289 (O’Connor, J.,
concurring in part); see also id. at 291 (Stevens, J.,
concurring in part and dissenting in part) (“There is []
no room for legitimate debate about whether a living
person has a constitutionally protected interest in life.
He obviously does.”). Defendants do not appear to
contest this point. Thus, the question is whether
Defendants have provided adequate procedural
safeguards for Plaintiff’s clemency proceedings.1
The procedures required for federal clemency
proceedings are limited. This is because “[f]ederal
clemency is exclusively executive: Only the President
has the power to grant clemency for offenses under
federal law.” Harbison v. Bell, 556 U.S. 180, 187
(2009) (citing U.S. Const. art. II, § 2, cl. 1 (setting forth
the president’s clemency power)). It is “a matter of
1

It is unclear whether Plaintiff alleges that access to clemency
itself is an independent liberty interest. While this might alter
the court’s procedural due process analysis, the conclusion is the
same—for the reasons discussed, Plaintiff has not stated a viable
procedural due process claim.

17a
grace, over which courts have no review.” United
States v. Pollard, 416 F.3d 48, 57 (D.C. Cir. 2005)
(quoting United States ex. Rel. Kaloudis v.
Shaughnessy, 180 F.2d 489, 491 (2d Cir. 1950)).
Nevertheless, controlling Supreme Court precedent
holds that “some minimal procedural safeguards
apply to clemency proceedings.” Woodard, 523 U.S. at
289 (O’Connor, Souter, Ginsburg, & Breyer, JJ.,
concurring in part); id. at 292 (Stevens, J., concurring
in part and dissenting in part) (“[E]ven if due process
is required in clemency proceedings, only the most
basic elements of fair procedure are required.”) At a
minimum, these procedures appear to be adequate
notice and an opportunity to be heard. See id. at 290
(O’Connor, J.).
Plaintiff argues that he has not been afforded these
minimal procedural safeguards for his clemency
proceedings in two key respects. First, that given the
timing of his execution, he did not have an adequate
opportunity to prepare his clemency petition in
accordance with the federal clemency regulations set
forth at 28 C.F.R. §§ 1.10–.11. Second, that the
ongoing COVID-19 pandemic has effectively made it
impossible to participate in a meaningful clemency
process in such a short time. However, the court finds
that, under Supreme Court precedent, the procedures
afforded to Plaintiff—of which he chose not to avail
himself—were adequate.
Federal clemency regulations provide that “[n]o
petition for reprieve or commutation of a death
sentence should be filed before proceedings on the
[inmate’s] direct appeal of the judgment of conviction
and first petition under 28 U.S.C. § 2255 have
terminated.” 28 C.F.R. § 1.10(b). To leave time for

18a
adequate review, a petition “should be filed no later
than 30 days after the petitioner has received
notification from the Bureau of Prisons of the
scheduled date of execution” and “[a]ll papers in
support of a petition . . . should be filed no later than
15 days after the filing of the petition itself.” Id.
Furthermore, clemency counsel “may request to make
an oral presentation of reasonable duration to the
Office of the Pardon Attorney in support of the
clemency petition.” Id. § 1.10(c).
Despite his arguments to the contrary, Plaintiff had
meaningful access to all these procedures. First, he
was permitted to file a clemency application within
thirty days of receiving his execution notice. It was
only on the very last day of the application period that
Plaintiff’s counsel, having not yet filed a petition,
sought an extension from the Office of the Pardon
Attorney. Notwithstanding that that office did not
have the authority to grant an extension, it
nevertheless offered to construe Plaintiff’s request as
a petition in order to preserve Plaintiff’s access to the
clemency process. (See ECF No. 15-1, Gillespie Decl.
¶¶ 8–9.) The Office of the Pardon Attorney also offered
to arrange for a hearing via telephone given Plaintiff’s
stated concerns about the pandemic. (Id. ¶ 9.)
Plaintiff’s counsel rejected these offers and chose not
to file a clemency petition.
Plaintiff next points out that, had he followed the
federal clemency regulations, the Office of the Pardon
Attorney would have had only five days in which to
consider his application. But Defendants have
submitted an affidavit from the Office of the Pardon
Attorney representing that this would have been

19a
sufficient time to consider the application and make a
recommendation. (Id. ¶ 11.)
Even assuming five days were insufficient for
meaningful review of his petition, that compressed
schedule was largely caused by Plaintiff’s delay in
filing for clemency. The federal clemency regulations
provide that a death row inmate may not file an
application “before proceedings on the [inmate’s]
direct appeal of the judgment of conviction and first
petition under 28 U.S.C § 2255 have terminated.” 28
C.F.R. § 1.10(b). Plaintiff’s appeal of his sentence
ended in 1998 when the Supreme Court declined to
hear his case, Hall v. United States, 526 U.S. 1117
(1998), and his first § 2255 petition was terminated in
2007, Hall v. United States, 549 U.S. 1343 (2007).
Thus, Plaintiff had thirteen years to file a clemency
petition, notwithstanding that his execution had not
yet been scheduled. While the regulations also require
an applicant to file his clemency petition “no later
than 30 days after the [applicant] has received
notification . . . of the scheduled date of execution,” see
28 C.F.R. § 1.10(b), there was nothing to prevent
Plaintiff from filing the application sooner, especially
after the BOP gave notice in June 2019 that it was
resuming executions under the new Protocol, and
after the BOP conducted its first execution in July of
this year.
For these reasons, the court is not persuaded that
the COVID-19 pandemic has denied Plaintiff access to
the clemency process. The government has shown that
sufficient procedures are in place to ensure timely
processing
of
Plaintiff’s
clemency
petition,
notwithstanding his delayed filing. The Office of the
Pardon Attorney offered Plaintiff the opportunity to

20a
present his case during a telephone hearing no later
than November 6, which would have left more than a
week for review. (Gillespie Decl. ¶ 9.) Moreover, courts
across the country have declined to delay executions
for pandemic-related reasons. See, e.g., LeCroy v.
United States, 975 F.3d 1192, 1197 (11th Cir. 2020)
(rejecting request to stay execution due to counsel’s
inability to meet with the plaintiff in person); Peterson
v. Barr, 965 F.3d 549, 551–53 (7th Cir. 2020) (denying
motion to stay execution filed by members of victim’s
family citing COVID-19 concerns). The court finds no
basis on which to do so here.
Finally, Plaintiff repeatedly relies on Justice
O’Connor’s concurrence in Woodard to advance his
due process claims (both related to clemency and
notice), but he omits key language from that opinion.
In emphasizing the minimal process required in
clemency procedures, Justice O’Connor posited that
“[j]udicial intervention might, for example, be
warranted in the face of a scheme whereby a state
official flipped a coin to determine whether to grant
clemency, or in a case where the State arbitrarily
denied a prisoner any access to its clemency process.”
Woodard, 523 U.S. at 289 (O’Connor, J., concurring in
part). Plaintiff has presented no such arbitrary
scenario here. Woodard involved an inmate who
received a mere ten-day notice of his hearing, whose
counsel was unable to attend the hearing, and who
was unable to testify or submit documentary evidence
at the hearing. Despite these limitations, Justice
O’Connor found that the inmate did not present a
viable due process claim. See id. at 289–90.

21a
For the reasons stated above, Plaintiff has failed to
demonstrate a likelihood of success on the merits of
his due process claims.
ii.

Statutory Claim

Plaintiff claims that he has been deprived of the
right to counsel set forth in 18 U.S.C. § 3599 because
his attorneys are unable to assist him with preparing
his clemency application due to the pandemic. Section
3599 provides that each attorney appointed to
represent an indigent client must “represent the
defendant throughout every subsequent stage of
available judicial proceedings . . . and proceedings for
executive or other clemency as may be available to the
defendant.” Plaintiff has failed to demonstrate how
the pandemic burdens that right, especially since he
could have prepared and filed a clemency application
at any point over the past thirteen years, and at least
since June 2019, when BOP announced the
resumption of executions using the 2019 Protocol.
While he may not be able to meet with his attorneys
in person, he may communicate with them through
other means. See Lecroy, 975 F.3d at 1197.
2.

Notice Claims

The gravamen of Plaintiff’s notice claims is that the
Due Process Clause and the Ex Post Facto Clause
entitle him to at least ninety days’ notice of his
execution. This is so, Plaintiff argues, because every
version of the BOP’s Execution Protocol from at least
1993 to July 31, 2020 provided that death row inmates
would receive a ninety-day notice prior to their
executions. The 2019 Protocol was changed on July
31, 2020 to provide only fifty days’ notice.

22a
i.

Due Process

Plaintiff’s substantive due process claim is not a
model of clarity. It appears as a procedural due
process claim in the complaint (Count IV) but seems
to transform into a substantive due process claim in
subsequent filings. Moreover, his substantive due
process claim relies on cases involving procedural due
process violations. (See Pl. Mem. at 21 (citing
Wilkinson, 545 U.S. at 221 (adjudicating procedural
due process claim regarding placement in a supermax
prison); Sandlin v. Connor, 515 U.S. 472, 483–84
(1995) (adjudicating procedural due process claim
involving prison disciplinary procedures); Wolff v.
McDonnell, 418 U.S. 539, 557 (1974) (same))).
Nonetheless, analyzed under both a procedural and
substantive due process framework, the claim does
not entitle Plaintiff to injunctive relief.
As discussed above, a plaintiff alleging a procedural
due process violation must identify a cognizable
liberty interest arising from the Constitution or “an
expectation or interest created by state laws or
policies.” See, e.g., Doe v. District of Columbia, 206 F.
Supp. 3d 583, 621 (D.D.C. 2016) (distinguishing
procedural from substantive due process claims).
Here, Plaintiff argues that earlier versions of the
Execution Protocol created an expectation that death
row inmates would be notified ninety days before their
executions. Thus, having only received a fifty days’
notice, he will be deprived of forty days of life.
As the court has already held in the Execution
Protocol Cases litigation, there is no enforceable notice
requirement set forth in the Execution Protocol. The
Protocol “explains[] internal government procedures.”
(Compl. Ex. 2, Execution Protocol at 19.) While those

23a
procedures “should be observed and followed as
written unless deviation or adjustment is required,”
the Protocol expressly cautions that it “does not create
any legally enforceable rights or obligations.” (Id.)
Accordingly, the D.C. Circuit concluded that the
Execution Protocol was a “procedural rule” that
“contains no rights-creating language.” In re Fed.
Bureau of Prisons’ Execution Protocol Cases, 955 F.3d
106, 125–26 (D.C. Cir. 2020) (Katsas, J., concurring);
see id. at 145 (Rao, J., concurring) (finding that the
protocol “possesses the essential features of a
procedural rule”); see also Nat’l Mining Ass’n v.
McCarthy, 758 F.3d 243, 250 (D.C. Cir. 2014)
(explaining that procedural rules “do not themselves
alter the rights or interests of parties”). Thus, as the
court has already held, the Execution Protocol does
not entitle Plaintiff to notice ninety days before his
execution.
Thus, to the extent Plaintiff intended to present the
claim in Count IV as a procedural due process
violation, he has failed to demonstrate a likelihood of
success on the merits.
*

*

*

*

*

*

Plaintiff’s substantive due process claim meets a
similar fate. The Due Process Clause of the Fifth
Amendment “guarantees more than fair process.”
Washington v. Glucksberg, 521 U.S. 702, 719 (1997).
It
“provides
heightened
protection
against
government inference with certain fundamental
rights and liberty interests . . . [such as] the rights to
marry, to have children, to direct the education and
upbringing of one’s children, to marital privacy, to use
contraception, to bodily integrity and to abortion.” Id.
at 720 (citations omitted). Because these rights “are

24a
not set forth in the language of the Constitution, the
Supreme Court has cautioned against expanding the
substantive rights protected by the Due Process
Clause.” Abigail All. for Better Access to
Developmental Drugs v. von Eschenbach, 495 F.3d
695, 702 (D.C. Cir. 2007). Accordingly, courts must
“exercise the utmost care whenever [] asked to break
new ground in this field.” Glucksberg, 521 U.S. at 720.
A substantive due process analysis has “two primary
features.” Id. First, the alleged right must be
“objectively, deeply rooted in this Nation’s history and
tradition and implicit in the concept of ordered liberty,
such that neither liberty nor justice would exist if they
were sacrificed.” Id. at 720–21 (internal quotation
marks and citations omitted). Second, the individual
asserting the substantive right must supply “a careful
description of the asserted fundamental liberty
interest.” Id.
Mindful of the Supreme Court’s directive to proceed
cautiously, the court finds that Plaintiff has failed to
identify a substantive due process right. The liberty
interest at issue here is a narrow one—the right to
ninety days’ notice before execution. (See Pl. Mem. at
21.) While individuals sentenced to death are
undoubtedly entitled to some notice before an
execution is carried out (to at least provide sufficient
time to challenge the sentence), there is certainly no
“deeply rooted” history or tradition that they are
entitled to ninety days or some other specified period.
As far as the court is aware, the practice of providing
federal death row inmates with ninety days’ notice of
execution began in 1993. Since then, the federal
government has only executed ten individuals, three
of whom received less than ninety days’ notice.

25a
Furthermore, as discussed above, the Execution
Protocol creates no enforceable rights. The only law
expressly providing Plaintiff a right to notice of his
execution is a 1993 regulation that requires only
twenty
days’
notice.
See
28
C.F.R.
§ 26.4(a).
Plaintiff has failed to show that a ninety-day notice
is a “deeply rooted” historical practice in this nation’s
history, and therefore his substantive due process
claim fails.
ii.

Ex Post Facto Clause

The Ex Post Facto Clause prohibits the retroactive
application of a “law that changes the punishment,
and inflicts greater punishment, than the law
annexed to the crime when committed.” Peugh v.
United States, 569 U.S. 530, 532–33 (2013) (discussing
U.S. Const. art I, § 9, cl. 3). This prohibition applies
with equal force to changes in legislation, regulations,
and guidelines. See Bailey v. Fulwood, 793 F.3d 127,
134 (D.C. Cir. 2015).
Here again, Plaintiff relies on earlier versions of the
Execution Protocol providing ninety days’ notice. In
his view, the change from ninety to fifty days’ notice
inflicts greater punishment because “it will shorten
his life by a minimum of 40 days.” (Pl. Mem. at 25.)
The court understands that every day of life is
precious to someone facing imminent death. However,
it is not clear how forty fewer days of life inflicts a
greater punishment on an individual who was
sentenced to death twenty-five years ago and who has
long since exhausted his appeals. Plaintiff’s death
sentence will remain the same whether he is given
fifty or ninety days’ notice of his execution.

26a
In support of his argument that a shortened notice
period inflicts a greater punishment, Plaintiff relies
on two cases which are more than a century old. In
Rooney v. North Dakota, the Supreme Court found
that a statute which increased the required time
between conviction and the implementation of a death
sentence was not an ex post facto punishment because
it benefitted the prisoner. 196 U.S. 319, 266 (1905).
And in In re Tyson, 22 P. 810, 812 (Colo. 1889), the
Colorado Supreme Court stated, in dicta, that
executing a defendant before the expiration of the
minimum time required between conviction and
execution would constitute an ex post facto
punishment.
The court does not share Plaintiff’s broad
interpretation of these cases. Neither addresses
whether reducing the notice period given to an
individual already awaiting execution inflicts a
greater punishment. Cf. Peterson, 965 F.3d at 552–53
(“[I]f a prisoner sued for inadequate notice of an
execution date, a court could review that decision. But
if the BOP observed the minimal requirements in the
regulations . . . then it has the unconstrained
discretion to choose a date for the execution.”). Rather,
Rooney and Tyson involved minimum time limits
prescribed by statute between judgment and
execution. Indeed, an analogous federal law prohibits
the execution of a death row inmate less than sixty
days after the entry of the judgment of death. See 28
C.F.R. § 26.3(a)(1).
As mentioned above, the court does not reach this
conclusion lightly—Plaintiff is undoubtedly correct
that “[j]ust a few more days of life is of inestimable
value to a man who is to be executed.” (Pl. Mem. at 24

27a
(quoting In re Petition of Ellisor, 140 F. Supp. 720, 727
(S.D. Tex. 1956)).) Nevertheless, Plaintiff has failed to
establish that deviation from an unenforceable agency
practice inflicts greater punishment on an individual
who received the notice to which he was entitled—
twenty days’ notice in accordance with 28 C.F.R.
§ 26.4(a) and sixty days between judgment and
execution in accordance with 28 C.F.R. § 26.3(a)(1)—
and who was sentenced to death more than two
decades ago.
3.

Equal Protection

Plaintiff alleges that he has been “denied equal
protection under the Fifth Amendment as he has not
received the same process that other death row
prisoners have been afforded to pursue clemency.”
(Compl. ¶ 184.) The basis of his claim is that
Defendants shortened the notice period “affording
significantly more process to those scheduled for
execution prior to the COVID-19 pandemic than those
scheduled for execution during the COVID-19
pandemic.” (Id. ¶ 180.)
The Fourteenth Amendment prohibits a state from
denying “any person within its jurisdiction the equal
protection of the laws.” U.S. Const. amend. XIV, § 1.
The Equal Protection Clause applies to the federal
government through the Due Process Clause of the
Fifth Amendment. Bolling v. Sharpe, 347 U.S 497
(1954). Thus, the “[e]qual protection analysis in the
Fifth Amendment area is the same as that under the
Fourteenth Amendment.” Buckley v. Valeo, 424 U.S.
1, 93 (1976).
To succeed on an equal protection claim, a plaintiff
must “demonstrate that he was treated differently
than similarly situated individuals and that [the

28a
government’s] explanation does not satisfy the
relevant level of scrutiny.” Settles v. U.S. Parole
Comm’n, 429 F.3d 1098, 1123 (D.C. Cir. 2005). Where,
as here, an equal protection claim does not involve a
suspect class, the court applies rational basis
scrutiny. See FCC v. Beach Commc’ns., Inc., 508 U.S.
307, 313 (1993) (nothing that the government action
“must be upheld against equal protection challenge if
any reasonably conceivable state of facts could provide
a rational basis for the classification”). “Review of an
equal protection claim in the context of agency action
is similar to that under the APA . . . [that is,] the only
question is whether . . . treatment of [the plaintiff] was
rational (i.e., not arbitrary and capricious).” Nazareth
Hosp. v. Sec’y U.S. Dep’t of Health and Hum. Servs.,
747 F.3d 172, 180 (3d Cir. 2014); see also Cooper Hosp.
/ Univ. Med. Ctr. v. Burwell, 179 F. Supp. 3d 31, 47
(D.D.C. 2016).
The court finds that Plaintiff is unlikely to succeed
on his equal protection claim for the same reason his
other constitutional claims fail: the Execution
Protocol does not bestow enforceable rights on death
row inmates. The D.C. Circuit has made it clear that
the Protocol is a statement of agency policy. Execution
Protocol Cases, 955 F.3d at 125–26 (Katsas, J.,
concurring); see id. at 145 (Rao, J., concurring).
Accordingly, it is not subject to review under the APA
analysis. See, e.g., Ctr. for Auto Safety v. Nat’l
Highway Traffic Safety Admin., 452 F.3d 798, 806
(D.C. Cir. 2006) (explaining that an agency’s
statement of policy is unreviewable); Pac. Gas & Elec.
Co. v. Fed. Power Comm’n, 506 F.2d 33, 39 (D.C. Cir.
1974) (“A general statement of policy . . . does not
establish a binding norm. It is not finally

29a
determinative of the issues or rights to which it is
addressed.” (internal quotation marks and citations
omitted)); Fed. Law Enf’t Officers Ass’n v. Rigas, 2020
WL 4903843, at *7 (D.D.C. Aug. 20, 2020) (same).
Ultimately, the law provides that all inmates
executed under the 2019 Execution Protocol be given
at least twenty days’ notice of their executions, and
Defendants have complied with that law.
4.

Ultra Vires Agency Action

Plaintiff also argues that the 2019 Execution
Protocol conflicts with the FDPA, 18 U.S.C. § 3596, by
purportedly displacing the U.S. Marshal Service from
its statutorily assigned role to “supervise
implementation” of a federal death sentence. (See
Compl. ¶¶ 173–78.) The court has already rejected
this claim in the Execution Protocol Cases litigation.
Section 3596 of the FDPA requires that in carrying
out a death sentence, “the Attorney General shall
release the person sentenced to death to the custody
of a United States marshal, who shall supervise
implementation of the sentence in the manner
prescribed by the law of the State in which the
sentence is imposed.” 18 U.S.C. § 3596(a). The critical
word here is “supervise,”2 which is undefined in the
statute. The court must therefore rely on its plain
meaning. “To ‘supervise’ is to ‘superintend’ or
‘oversee,’” but not to “formulate,” “determine,” or
“select” the manner of federal execution. Execution
Protocol Cases, 955 F.3d at 134 (Rao, J., concurring)
2

As Judge Rao explained in her concurrence, “[t]he ordinary
meaning of ‘implementation of the sentence’ includes more than
‘inflicting the punishment of death.’” Execution Protocol Cases,
955 F.3d at 133 (Rao, J., concurring).

30a
(citing Supervise, Merriam Webster’s Collegiate
Dictionary (11th ed. 2014)).
The legislative history of the federal death penalty
indicates that “supervise” does not mean the U.S.
Marshal has the exclusive authority to carry out
federal executions or to institute procedures for doing
so. In prior federal death penalty statutes, Congress
used more expansive language to describe the U.S.
Marshal’s duties during an execution. For instance, in
the 1937 version, Congress provided that the U.S.
Marshal was “charged with the execution of the
sentence.” See 50 Stat. at 304.
The 2019 Protocol does not divest the U.S. Marshal
of this supervisory authority. In fact, it mandates that
the U.S. Marshal “oversee the execution and to direct
which other personnel may be present at it.”
Execution Protocol Cases, 955 F.3d at 124 (Katsas, J.).
The execution cannot begin without the Marshal’s
approval, and it is the Marshal who certifies that the
execution has been carried out. Id. The court therefore
concludes that the U.S. Marshal supervises—i.e.,
oversees and superintends over—the execution.
Furthermore, the fact that the U.S. Marshal must
supervise an execution does not preclude other DOJ
components from participating. Indeed “all functions
of agencies and employees of the Department of
Justice”—of which both the Marshal Service and the
BOP are parts—”are vested in the Attorney General.”
Thus, any authority inherent in the Attorney
General’s power to enforce a death sentence that has
not been specifically assigned to a DOJ component
may be delegated. See 28 U.S.C. §§ 509, 510; United
States v. Giordano, 416 U.S. 505, 514 (1974) (finding
unexceptional the proposition that the Attorney

31a
General may freely delegated his power where
Congress does not say otherwise).
The 2019 Protocol, as written, still provides the U.S.
Marshal the power to supervise the implementation of
a death sentence. Therefore, the court finds that the
2019 Protocol does not improperly delegate authority
to the BOP.
C.

Remaining Factors for Injunctive Relief

Having concluded that none of Plaintiff’s claims are
likely to succeed on the merits, the court need not
balance the remaining factors. See Greater New
Orleans Fair Hous. Action Center v. U.S. Dep’t of
Hous. & Urban Dev., 639 F.3d 1078, 1083 (D.C. Cir.
2011) (noting that a substantial likelihood of success
the merits is often dispositive); Toxco Inc. v. Chu, 724
F. Supp. 2d 16, 29 (D.C. Cir. 2010) (quoting Am.
Bankers Ass’n v. Nat’l Credit Union Admin., 38 F.
Supp. 2d 114, 140 (D.D.C. 1999)) (“[A]bsent a
‘substantial indication’ of likely success on the merits,
‘there would be no justification for the court’s
intrusion
into
the
ordinary
processes
of
administration and judicial review.’”). Plaintiff is not
entitled to the injunctive relief sought.
D.

Emergency Motion for a Hearing

Plaintiff has also filed an emergency motion for a
hearing. (ECF No. 14.) The court finds that such a
hearing is not necessary given that Plaintiff has
presented no disputed issues of fact that need be
resolved. See Cobell v. Norton, 391 F.3d 251, 261 (D.C.
Cir. 2004) (“[I]f there are genuine issues of material
fact raised in opposition to a motion for a preliminary
injunction, an evidentiary hearing is required.”); see
also LCvR 65.1(d) (“[A] hearing on an application for

32a
preliminary injunction shall be set by the Court no
later than 21 days after its filing, unless the Court
decides the motion on the papers”). Thus, Plaintiff’s
emergency motion for a hearing will be denied.
III. CONCLUSION
For the foregoing reasons, Plaintiff’s motion for a
temporary restraining order/preliminary injunction
and emergency motion for a hearing must be
DENIED. The court will issue an accompanying order
accordingly.
Date: November 16, 2020
Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

33a
APPENDIX D
_________
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_______
Civil Action No. 20-cv-3 184 (TSC)
_______
ORLANDO CORDIA HALL,
Plaintiff,
v.
WILLIAM P. BARR, ET AL.,
Defendants.
_______
ORDER
_______
For the reasons set forth in the accompanying
memorandum opinion (ECF No. 23), Plaintiff’s motion
for a temporary restraining order/preliminary
injunction, (ECF No. 3), and emergency motion for a
hearing, (ECF No. 14), are hereby DENIED.
Date: November 16, 2020
Tanya S. Chutkan
TANYA S. CHUTKAN
United States District Judge

34a
APPENDIX E
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_________
Case No.: 1:20-cv-03184
_________
ORLANDO CORDIA HALL,
Plaintiff,
v.
WILLIAM P. BARR, ET AL.
Defendants.
_________
Death Penalty Case
Execution Date: November 19, 2020
_________
DECLARATION OF ROBERT C. OWEN
PURSUANT TO 28 U.S.C. § 1746
_________
I, Robert C. Owen, declare and state the following:
1. I am an attorney licensed to practice in Texas
and Illinois and am a member in good standing of the
bars of both states. I maintain my office in Chicago’s
historic Monadnock Building at 53 West Jackson
Blvd., Ste. 1056.
2. I hold a bachelor’s degree in Comparative
Literature (1984) and a master’s degree in Speech
Communication (1986) from the University of

35a
Georgia. I earned my J.D. degree at Harvard Law
School (1989).
3. I am a criminal defense attorney and for the
most part limit my practice to capital cases. I was first
licensed as a lawyer in 1989. From 1995-1998, I served
as an Assistant Federal Public Defender in Seattle,
Washington, and in that role handled a wide range of
non-capital matters in addition to a few capital cases.
Other than during that interval, I have devoted
almost my entire thirty-year legal career to defending
clients facing the death penalty, primarily in
appellate and post-conviction litigation. I have done so
in a variety of practice settings (in a non-profit law
office, in a public defender agency, in a small private
practice, in a law school clinic, in a solo practice). My
cv (circa 2019) is attached as Exhibit 1.
4. In the current iteration of my practice, I
directly represent individual clients in capital cases in
state and federal court. By virtue of a contract funded
by the Defender Services Division of the
Administrative Office of the United States Courts, I
also serve as a consultant and advisor to other
attorneys handling such cases.
5. I have successfully argued four capital cases at
the Supreme Court of the United States (Tennard v.
Dretke (2004), Abdul-Kabir v. Quarterman (2007),
Brewer v. Quarterman (2007), and Skinner v. Switzer
(2011)). I am regularly invited to present at national
training programs focusing on capital defense. I
directed or co-directed death penalty defense clinics at
the law schools of the University of Texas at Austin
(1998-2012) and Northwestern University (20132019). In 2011, I received a medal from the Bar of the

36a
City of Paris (France) in recognition of my work in the
struggle for human rights.
6. I have represented Orlando Cordia Hall
continuously since 1999. I was initially appointed for
Mr. Hall’s initial post-conviction proceeding under 28
U.S.C. § 2255, as co-counsel to Marcia A. Widder.
7. This declaration addresses two main subjects:
what work needs to be done to prepare and submit a
petition for commutation of sentence on behalf of Mr.
Hall, and why; and how my personal circumstances
place me and my loved ones at greater risk for
complications if I become infected with the novel
coronavirus and contract its associated disease,
COVID-19. I will address those topics in that order.
8. Mr. Hall’s trial counsel conducted almost no
investigation into his background and what little they
did was undertaken after jury selection in his capital
trial had already started. Thus, one of the tasks Ms.
Widder and I had to pursue in Mr. Hall’s 2255
proceeding was to conduct a thorough investigation,
as required by prevailing professional standards for
defending a client in a capital case. That postconviction investigation was conducted primarily
between 2001 and 2004. It was incomplete, however,
due to funding restrictions imposed by the district
court. For example, the court refused to authorize any
funds for the work of a mitigation expert essential to
developing the mitigating evidence that trial counsel
failed to investigate, leaving my co-counsel Ms.
Widder and me to fund her work out of our own
pockets. The same lack of resources prevented us from
performing additional investigation to support the
clemency application we hastily prepared and
submitted in late 2016 at the tail-end of the Obama

37a
Administration, in case the President chose to
exercise his clemency powers to commute the
sentences of death row inmates. As explained below,
it was incomplete and inadequate, and we withdrew it
before it was acted upon when President’s Obama’s
second term ended without such commutations.
9. The December 2016 clemency application
contained little personal information about Mr. Hall.
Instead, it focused primarily and at length on
systemic flaws with the administration of the federal
death penalty such as geographic and socio-economic
inequities and racial bias. It also addressed the lack
of procedural fairness in the trial underlying Mr.
Hall’s death sentence. Only the last fourteen of this
application’s seventy pages dealt at all with Mr. Hall’s
capacity to live safely and productively in prison, how
his background shaped his involvement in the crime,
and what value his life would have to others if it were
spared. We submitted a few sworn statements that we
had obtained during the post-conviction proceedings
more than a decade earlier, supplemented by ten
letters, mostly very brief, from some of Mr. Hall’s
family members, plus two more letters from Ms.
Widder and me. The petition did not focus on these
traditional grounds for clemency because we lacked
the resources to conduct the type of investigation that
typically attends preparation of an adequate clemency
application.
10. Mr. Hall now faces execution on November 19.
In my judgment, to satisfy our professional
obligations as counsel at this stage of the proceedings,
Ms. Widder and I need to create a completely different
kind of clemency application from the one that was
submitted in 2016 and later withdrawn. In contrast to

38a
what was submitted before, Mr. Hall’s clemency
application needs to be fully developed as a vehicle for
presenting detailed evidence to (1) explain how Mr.
Hall’s life experiences affected his involvement in the
crime; (2) show that he is deeply remorseful for the
crime, poses no threat of future criminal violence in
prison and can live out his life constructively there;
and (3) paint a detailed portrait of his rich and vibrant
connections to his family, which will make clear how
he has productively used his time on death row to
maintain his family relationships and, in particular,
to provide loving guidance to his five children, as well
as the great loss his execution would cause to his
many loved ones. Those strategic goals can only be
meaningfully pursued via a thorough factual
investigation conducted according to the prevailing
standard of practice for capital defense. That, in turn,
would require travel and in-person contact with
sources of relevant information.
11. Unfortunately, the global pandemic of novel
coronavirus creates a risk of serious illness or death
to me and my loved ones if I choose to travel and to
have in-person contact with individuals outside my
household for the purpose of preparing such a fully
developed clemency application for Mr. Hall, or
investigating possible bases for further litigation in
his case. If that were not the case, I would undertake
a complete factual investigation, of which the
following examples are illustrative.
Mr. Hall’s turbulent background of abuse and
privation.
12. Even the limited investigation we were able to
perform in connection with Mr. Hall’s post-conviction
proceeding made clear that the circumstances of Mr.

39a
Hall’s upbringing were traumatizing and painful.
Despite the fact that the courts rejected Mr. Hall’s
post-conviction challenge to his trial attorneys’ failure
to develop and present this information to the
sentencing jury, the full story of Mr. Hall’s
background was essentially unknown to the jurors
who sentenced him to death.11 Accordingly, that story
remains relevant to the President’s decision whether
death is the appropriate sentence. To fully develop
that information, we would need to conduct in-depth,
in-person interviews with the following persons:
13. We have information that in his late teens, Mr.
Hall was left to care for his two younger brothers,
Demetrius Hall (Texas) and Tracy Hall, with no
adult in the home. At times, the boys had neither
electricity nor food. The teenage Mr. Hall tried to
make ends meet by working legitimate low-wage jobs,
but ultimately was lured into the drug trade. In
addition, Demetrius was a witness to violent attacks
on his mother Betty at the hands of his (and Mr.
Hall’s) father A.J. in the family household when
Demetrius and Mr. Hall were children, and that
Demetrius likewise saw Mr. Hall suffer serious
1

1 Mr. Hall’s trial counsel presented a superficial and
abbreviated case at the sentencing hearing, offering only eight
witnesses. Six described bad qualities of co-defendants Webster
and Beckley, and Mr. Hall’s behavior in jail while awaiting trial.
Only two witnesses, Mr. Hall’s mother Betty and his sister
Cassandra Ross, touched on Mr. Hall’s upbringing and character,
and trial counsel failed to elicit anything more than vague and
conclusory descriptions. Based on this sketchy evidence, only one
juror found the “circumstances surrounding [Hall’s] upbringing”
mitigating, a finding the Fifth Circuit found reasonable given
that the evidence as presented by trial counsel was insubstantial.
See United States v. Hall, 152 F.3d 381, 413 (5th Cir. 1998).

40a
physical abuse at the hands of both parents, including
being beaten with switches and belts. During § 2255
proceedings, we were not able to interview Demetrius,
who at the time was serving a lengthy prison sentence
for his involvement in this crime, about these
important events and experiences. We believe it
essential to Mr. Hall’s clemency application that we
meet with Demetrius in person to explore his thoughts
and recollections about these emotionally difficult and
sensitive matters, and to assist him in crafting a
declaration to convey his first-hand experiences of Mr.
Hall’s turbulent family history and the damage it
caused to him and his siblings.
Mr. Hall’s history of sexual abuse
14. In 2016, we learned for the first time that as a
child (around ages 7-10), Mr. Hall was the victim of
sexual abuse at the hands of Charles (last name
unknown), an adult neighbor of Mr. Hall’s
grandmother in the town of Summerfield, Louisiana.
Although Charles has died, there are others who may
be able to corroborate Mr. Hall’s account. For
example, Mr. Hall’s older brother Scottie Hall
(Arkansas) has indicated to us that he had reason to
believe Charles was behaving improperly with and
toward children, but it was impossible to explore this
in appropriate depth and detail over the telephone. In
addition, Mr. Hall’s younger brother Demetrius Hall
(Texas) may likewise have relevant information. In
addition, Charles was married to a woman who
worked with Mr. Hall’s mother Betty Hall at the ConAgra chicken processing plant in El Dorado, Arkansas
and who may still be available to interview. We need
to pursue interviews with all these witnesses, as well
as thorough interviews with our client Orlando Hall

41a
regarding these incidents. We also need to identify an
expert in child sexual abuse who can evaluate the
impact that these traumatic experiences had on Mr.
Hall, including conducting an in-person mental health
evaluation.
Mr. Hall’s exemplary conduct during previous
incarcerations and while on Death Row.
15. Mr. Hall has exhibited exemplary conduct in
prison. Prior to his current incarceration, he served
only one prison term, when he was incarcerated in the
Arkansas state prison system for selling drugs.
Records show that he quickly reached the highestlevel trusty status during that prison term. As an
Arkansas inmate, Mr. Hall did not commit a single
disciplinary infraction – proving him, in the words of
a corrections expert, an “ideal inmate.”
16. In 2016, Mark Bezy, a former warden at the
Terre Haute federal correctional complex where Mr.
Hall has been held since 1999, reviewed what was
then Mr. Hall’s complete Bureau of Prisons file (i.e.,
his file through 2015). Mr. Bezy found that Mr. Hall’s
record to that date was “remarkable” in that in his
then-20 years of post-trial incarceration under a death
sentence, Mr. Hall had received only seven
disciplinary write-ups, “all reflecting minor violations
and none involving violent or dangerous behavior.”
Through 2015, Mr. Hall’s disciplinary history
contained “no indications” that he posed “a threat to
safety or the orderly running of an institution.” But
today the information reviewed by Mr. Bezy covers
only about 75% of Mr. Hall’s BOP incarceration. Thus,
one task that must be performed in order to prepare a
complete clemency application now, in 2020, is to
obtain Mr. Hall’s updated Bureau of Prisons records

42a
and provide them to Mr. Bezy to determine whether
they strengthen his confidence in his expert opinion
that if Mr. Hall’s death sentence were commuted, he
could live peaceably and productively in a general
population prison environment. We anticipate that it
would also be necessary to have Mr. Bezy meet with
Mr. Hall in person and interview him about his record
in the BOP.
17. Other witnesses who have never been
interviewed and who likely possess relevant
information about Mr. Hall’s adjustment to
confinement include the following.
18. A former Bureau of Prisons employee
(Indiana) – for several years, this individual had
regular contact with Mr. Hall on Death Row in the
Secure Confinement Unit at the U.S. Penitentiary in
Terre Haute. We believe this individual would be able
to offer firsthand accounts to corroborate and
personalize Mr. Bezy’s conclusions about Mr. Hall’s
“remarkable” record of successful adjustment in
prison and his prospects for being a fully compliant
inmate if his life is spared and he is moved to a general
population setting.
19. Former Bureau of Prisons mental health
staffer (Texas) – This individual saw Mr. Hall on
numerous occasions at the Federal Medical Center in
Ft. Worth, Texas, while Mr. Hall was held there in
1995, and had a generally very positive appraisal of
Mr. Hall. In a 2001 phone conversation, this
individual told a member of Mr. Hall’s post-conviction
counsel team that Mr. Hall could fairly be described
as a “model inmate.” Unfortunately, because in 2001
this individual was still employed by the Bureau of
Prisons, it was not possible for us to obtain a thorough

43a
interview or a written statement. Now that this
individual is no longer employed by the Bureau of
Prisons, that restriction no longer pertains.
20. Second BOP medical staffer (location
unknown, possibly Texas) –according to documents in
our possession, this medical staffer had contact with
Mr. Hall from October 1994 (shortly after his arrest)
until March 1995, on occasions when Mr. Hall’s family
members reported that he was experiencing suicidal
thoughts. To the extent those reports were accurate,
they likely reflect the depth of shame and remorse Mr.
Hall was experiencing for his involvement in Lisa
Rene’s murder. For that reason, a complete clemency
investigation must include locating and interviewing
this individual about his or her contacts with, and
appraisal of, Mr. Hall.
21. In addition, upon information and belief, there
are other BOP employees (locations unknown but
likely including Indiana and Texas) who have had
contact with Mr. Hall during the years he has spent
in federal custody (both prior to trial and since his
conviction) who would confirm that Mr. Hall is nondangerous and completely compliant, and poses no
threat whatsoever to prison staff or other inmates. We
expect that interviewing the individuals of whose
existence we are presently aware would produce the
names of such other potential witnesses. Pursuing
such witnesses would be necessary to the complete
development and presentation of Mr. Hall’s clemency
application (even if some continue to be employed by
the BOP, which might mean negotiation and/or
litigation would be necessary to secure access to
them).

44a
Mr. Hall’s alleged plan to escape from custody
prior to trial
22. Prior to trial, Larry Nichols, another inmate in
the facility where Mr. Hall was being held, informed
the Government that Mr. Hall was planning an escape
attempt in which he intended to take his own
attorneys and/or the trial judge hostage. The
Government then called Nichols to testify to those
same allegations at Mr. Hall’s capital sentencing
hearing. His testimony was almost certainly a major
factor in the jury’s unanimous determination that Mr.
Hall would constitute a future danger. Mr. Hall,
however, has consistently maintained that no such
plan ever existed and that he had no connection to a
homemade weapon introduced at trial that was
recovered from a common area in the jail (and which
Nichols claimed Mr. Hall had secreted there as part of
his escape plan). Mr. Hall’s denial is consistent with
his prior record of successful adjustment to
confinement and with the accounts of at least two
other prisoners who were in the same jail area at the
same time, both of whom dispute Mr. Nichols’
allegations against Mr. Hall and provided sworn
statements to that effect in 2000. At this stage of
proceedings, we would want to explore whether Mr.
Nichols entered into similar plea agreements with the
government in subsequent cases.
23. Benjamin C. Millican (location unknown,
possibly Texas, last released from BOP custody in
2015) and Haywood G. Alexander (location
unknown, possibly Texas, last released from BOP
custody in 2006) may also have relevant information
that would undermine the testimony of Larry Nichols
and thus support Mr. Hall’s claim that he is not a

45a
danger to anyone and has adjusted peaceably to
confinement. Mr. Millican and Mr. Alexander were
inmates in the same jail area at the same time as the
inmates from whom we obtained helpful statements.
They likely observed and interacted with both Mr.
Hall and Mr. Nichols. Mr. Alexander was described in
another inmate’s statement as having frequently
talked with Mr. Nichols about how a prisoner might
obtain favorable treatment from the prosecution by
providing information against other inmates. A
complete clemency investigation would involve
locating and interviewing both Mr. Millican and Mr.
Alexander. Information provided by either could
support further contact with Larry Nichols (location
unknown) himself; although Mr. Nichols did not
provide helpful information when a representative of
our team contacted him in 2010, that might well
change if he were confronted with contrary
statements from Mr. Millican or (especially) Mr.
Alexander.
Mr. Hall’s culpability relative to the other
participants in the crime
24. Mr. Hall has always maintained that despite
his involvement in abducting, holding, and eventually
killing Ms. Rene, he did not sexually assault her. That
fact could be central to any chance at clemency, and
thus warrants full investigation, which would include
interviews of the co-defendants. Information suggests
that the evidence the prosecutor presented at trial
about Mr. Hall’s sexual assault of the victim and the
relative culpability of the different participants in the
crime may have been inaccurate or at least
incomplete. Given these circumstances, we need to
interview codefendants Steven Beckley and Marvin

46a
Holloway (as well as Mr. Hall’s younger brother
Demetrius Hall, see supra). All three were
incarcerated for varying terms of years in connection
with this case and all three have been released from
custody since Mr. Hall’s § 2255 proceeding concluded.
In particular, we need to interview Mr. Beckley to
explore why he did not accuse Mr. Hall of sexually
assaulting Lisa Rene until he had already made
repeated custodial statements that never mentioned
that presumably significant fact, even though, in his
multiple prior statements, he fully inculpated himself
in the crime (including confessing that he sexually
assaulted Lisa Rene), and inculpated Mr. Hall in all
the events of the crime except sexually assaulting Lisa
Rene. In my experience, co-defendants (and other
compromised prosecution witnesses) are often more
forthcoming about their participation in the offense
and the reliability of their testimony once they are out
of custody. Mr. Beckley was released from custody in
April 2020. In addition, we understand that Marvin
Holloway recently attempted to write Mr. Hall, but
that the prison refused the letter because it violated
correspondence rules due to colored ink or paper. We
would also interview formerly death-sentenced
codefendant Bruce Webster, who at this time has had
his death sentence vacated on the ground that he is a
person with intellectual disability, as soon as that
decision becomes final.
The value of Mr. Hall’s life and his strong and
vital connections to the lives of his family
members
25. Perhaps the most significant -- and
significantly unfinished -- task in fully developing a
clemency application for Mr. Hall is providing a

47a
detailed account of the very strong bonds he shares
with his immediate and extended family, and the vital
and positive role he plays in their lives. Our postconviction investigation focused primarily on trying to
excavate the underlying events in Mr. Hall’s
background, like his traumatic experiences of
deprivation and mistreatment. Our goal at that time
was to uncover essential context for understanding
how those life experiences diminished Mr. Hall’s
moral culpability, and for appreciating how Mr. Hall
came to be involved in the crime and why he did not
intervene to save Lisa Rene. In working with family
witnesses between 2000 and 2004, we paid little
attention to developing and presenting a richly
detailed account of the positive aspects of Mr. Hall’s
life now, as opposed to the damaging aspects of his
upbringing in El Dorado, Arkansas in the 1970s and
80s. A § 2255 proceeding is backward-looking; it
focuses on the fairness of the defendant’s trial. Our
aim was to show that Mr. Hall’s trial counsel
unreasonably failed to present evidence available in
1995 that could have affected the jury’s judgment
about the appropriate punishment. However dismally
Mr. Hall’s trial attorneys performed in 1995, evidence
of how his relationships with other family members
deepened, strengthened, and evolved over the course
of the years that followed was not relevant to
assessing counsels’ performance at trial. Moreover,
such evidence could not have been fully developed
more than fifteen years ago, at the time of our § 2255
investigation, because at that time Mr. Hall’s children
were still young and unable to reflect on the positive
example he set for them from prison or to appreciate
the time and attention he gave to being a supporting
and loving father (and now grandfather).

48a
26. Today, Mr. Hall maintains near-constant
contact with his family members via telephone and
email. To present a fully developed case for mercy in
2020, we need to interview them about how he relates
to family members, how he shares joy at their
successes and commiserates with their failures, and
how he helps provide a steady source of love and
understanding for his children as they navigate their
own lives as parents. In addition to being focused on
issues relating to Mr. Hall’s traumatic upbringing,
our most substantial contacts with Mr. Hall’s family
members took place more than fifteen years ago.
There is a tremendous amount of additional
information to be gathered from family interviews
about the value of Mr. Hall’s life to his loved ones, as
reflected in how their relationships with him have
grown and deepened over those fifteen years. The
family members we need to interview in person on
these topics include Betty Hall (Mr. Hall’s mother, in
Arkansas); Cassandra Ross (his sister, in Texas);
Jerry Ross (his brother-in-law, in Texas); Marco
Ross (his nephew, in Texas); Skyler Ross (his niece,
in Texas); Pamela Palmer (his sister, in Texas);
Tracy Hall (his younger brother, in Arkansas or
Texas); Demetrius Hall (his youngest brother, in
Texas); Scottie Hall (his older brother, in Arkansas);
Albert Moore (his half-brother, in Louisiana);
Jackie Rice (his half-brother’s wife, in Louisiana);
Shontay Anders (his daughter, in Texas); Preisha
Green (his daughter, in Arkansas); Te’Aushia Hall
(his daughter, in Arkansas); Orlando Hall, Jr. (his
son, in Wisconsin); Shanyce Matthews-McGee
(mother of Orlando Hall, Jr., in Wisconsin); Eric
Hampton (his son, in Arkansas); Jamie Garrett

49a
(mother of Eric Hampton, in Arkansas); Juanita
Taylor (his cousin, in Arizona); Alexis Tubbs (his
niece, in Arkansas); Tantarras Smith (his niece, in
Arkansas); Kevin Norful (his nephew, in Missouri);
Vada Smith (family friend, in Arkansas);
Christopher Thomas (friend, in Arkansas). Each of
Mr. Hall’s children now has children of their own, and
many of those children are old enough to have their
own relationships with Mr. Hall that stretch back as
much as a decade. Those family members, too, must
be interviewed in person.
Trial jurors
27. Jurors’ views about the appropriateness of
carrying out a death sentence can change over time.
For example, a juror might learn that the defendant
has adjusted peaceably to prison in the years since
trial and has proved to be a model inmate rather than
posing a continuing threat to others. Such a juror
might conclude as a result that she was mistaken to
assume that only execution, rather than confinement,
could adequately protect society from the defendant.
Where jurors’ views have undergone such changes, it
is vital that the executive decision-maker know about
them in weighing whether to grant clemency. In a
number of capital cases, juror affidavits urging mercy
have been cited by such decision-makers in
announcing favorable clemency decisions, as when
then-Governor Mitch Daniels in 2005 commuted the
death sentence of Arthur Baird in Indiana.
Accordingly, after obtaining permission from the
presiding judge pursuant to local rule, we need to
interview the trial jurors, all or most of whom are
likely still in Texas: Marcia Dawn Graves, Timothy
Ray Nesbit, Donald Robert McCormick,

50a
Benjamin T. McGowen, “Mary Ann” Herring,
Jacquelyn Kay Holmes, Linda Louise Harrell,
Patsy A. Brandon, Gary Clarence Killion, Billy
Dwayne Dean, Stacey Leigh Donaldson.
Video presentation in support of clemency
28. The prevailing standard of practice for capital
defense supports creating a video presentation to
accompany and supplement Mr. Hall’s clemency
application. Compelling visual images would help
bring to life the case for mercy. Such a video could
ultimately include footage of any of the potential
witnesses identified above and would, at a minimum,
include footage of Mr. Hall. Creating such a video
would require me and co-counsel to have in-person
contact with Mr. Hall and the witnesses.
Polygraph examination in support of clemency
0. As the foregoing discussion makes clear, there
are at least two issues relevant to Mr. Hall’s clemency
application that involve disputed facts: whether Mr.
Hall in fact plotted an escape from custody prior to
trial (as jail inmate Larry Nichols alleged), and
whether Mr. Hall in fact sexually assaulted the victim
Lisa Rene (as cooperating codefendant Steven Beckley
eventually alleged after never having previously made
that claim in any of his numerous statements to the
authorities). To support our clemency application on
these grounds, we need to submit Mr. Hall to
examination by a qualified polygraph examiner to
probe further into those allegations. Such an
examination will require in-person contact between,
at a minimum, Mr. Hall and the examiner. It would
likely also require in-person contact among me, my cocounsel, and the examiner to discuss and prepare for

51a
the examination and to review the results. While the
results of such an examination would not be
admissible in court, they might well help persuade the
President that the Government’s only evidence
tending to show that Mr. Hall cannot live peacefully
and safely in prison – Nichols’ testimony, which is
already rebutted by Mr. Hall’s record as an inmate
both before the alleged escape plot and since – was in
fact false. They might also persuade the President
that Mr. Hall did not, in fact, sexually assault Lisa
Rene, which could diminish his culpability sufficiently
to justify reducing his death sentence to life
imprisonment without the possibility of release. As
with the request to interview BOP employees, this
plan could require negotiation and/or litigation to
obtain access to Mr. Hall by a qualified polygraph
examiner.
30. According to my primary care physician, I have
one medical condition which bears an established
connection to an increased risk of serious illness or
death if I become infected with the novel coronavirus.
See Exhibit 2, submitted under seal. I am also under
a physician’s care for a second condition which may
also increase my risk from COVID-19. Id. And I am 58
years old, and older age is also associated with higher
rates of severe illness from COVID-19. Id. For these
reasons, my physician deems it “medically important”
that I “avoid travel and close contact with other
people” unless and until there is an effective
treatment or a vaccine for COVID-19. Id.
31. My wife has suffered her entire life from a
medical condition that can cause her trouble
breathing, and it is worsening as she ages (she is now
55). She is under a doctor’s care for that condition and

52a
takes medication daily to treat it. Even so, from time
to time she experiences trouble breathing. COVID-19
is a respiratory disease, meaning of course that it
affects the lungs, throat, and nose. According to what
I have read, for a person with my wife’s condition,
infection with the virus could lead to (inter alia)
pneumonia or other serious lung disease. My wife is
the most important person in the world to me, and I
am unwilling to do anything that might risk her
health (as by risking becoming infected with the novel
coronavirus and possibly passing it on to her).
32. Knowing that we could be at increased risk for
severe illness or death as a consequence of the
pandemic, my wife and I since March have taken
great care to minimize our contact with other people
and to take special precautions when it is necessary to
leave our house (i.e. wearing a mask, carrying and
using hand sanitizer, washing our hands frequently).
We live with our cat; we have no children and no one
else shares our residence. Other than me and my wife,
no one has been in our house since March except on
two occasions. In the hottest part of the summer, an
A/C technician came to attend to a problem with our
air-conditioning unit; this week, with winter looming,
a furnace repairman came to service our furnace. Nor
have my wife and I ventured out for social contact
with others; since March, we have not been in a
restaurant, nor a theatre, nor a shop. Our groceries
are all delivered to our home. There are a couple of
stores near our home where we order goods in advance
and then drive up and have someone place the items
in the trunk of our car. Both my wife and I leave our
home to exercise outdoors, but always masked; she
goes for walks and rides her bicycle, and I just bicycle.

53a
Like me, my wife works from home (she is a Senior
Lecturer at Northwestern University’s Pritzker
School of Law, and all her teaching and other
interaction with students since March has been
conducted remotely via videoconference). I have been
to my office in the Loop fewer than five times since
mid-March, each time to retrieve a specific item and
then return home. Simply put, we are hunkered down
at home until the pandemic is brought under control.
33. Mr. Hall has the right to counsel to represent
him in “all available post-conviction process, together
with applications for stays of execution and other
appropriate motions and procedures, and in . . .
proceedings for executive or other clemency as may be
available to the defendant.” 18 U.S.C. §3599(e). Mr.
Hall’s scheduled Nov. 19 execution date forces me to
choose between protecting my health and my wife’s on
the one hand, versus performing the tasks that my
three decades of experience as a capital defense
lawyer have taught me are necessary to prepare an
adequate clemency application that comports with the
prevailing national standard of practice for capital
cases, and which I have described in detail above.
34. That the Government is willing to hold my
indigent death-sentenced client hostage to my
willingness to risk my own health and safety, and that
of my wife, sometimes fills me with rage, and other
times with despair. This country used to be better
than that. I hope that someday soon, it will be again.
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on November 1, 2020.

54a
/s/ Robert C. Owen
Robert C. Owen

55a
APPENDIX F
_________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
_________
Case No.: 1:20-cv-03184
_________
ORLANDO CORDIA HALL,
Plaintiff,
v.
WILLIAM P. BARR, ET AL.
Defendants.
_________
Death Penalty Case
Execution Date: November 19, 2020
_________
DECLARATION OF MARCIA A. WIDDER
_________
Marcia A. Widder, pursuant to the provisions of 28
U.S.C. § 1746, hereby makes the following
declaration:
1. I am an attorney licensed to practice law in the
states of Louisiana, Pennsylvania and Georgia. My
Louisiana and Pennsylvania bar memberships are on
inactive status. I received a bachelor of arts degree
from the University of Pennsylvania in August 1988
and a juris doctor degree from Tulane Law School in
May 1994. In August 1996, following a two-year
judicial clerkship for Hon. James L. Dennis at the

56a
Supreme Court of Louisiana and the United States
Court of Appeals for the Fifth Circuit, I moved to
Philadelphia to work as an associate for a solo
practitioner, Michael R. Needle, with whom I had
previously worked as a paralegal and, during law
school, as a summer clerk. After working in
Philadelphia for two years, I moved back to New
Orleans to pursue full-time work as a capital defense
attorney.
2. A few months after I arrived in Philadelphia, R.
Neal Walker, a capital defense lawyer in New Orleans
with whom I had worked during law school at the
Loyola Death Penalty Resource Center, asked me to
join him as co-counsel on Orlando Hall’s federal
capital direct appeal. I agreed and began working on
the case after receiving the appellate record in, I
believe, early 1997. Shortly after I began actively
working on Mr. Hall’s case, Mr. Walker was struck by
a car and almost killed. Because of the serious injuries
he sustained, the Fifth Circuit appointed me as
counsel under the Criminal Justice Act with the
understanding that, while I would serve as lead
counsel, due to my inexperience, my work would be
overseen by seasoned capital defense attorneys
serving as Federal Capital Resource Counsel. See
Motion to Extend Time to File Appellant’s Brief and
to Appoint Co-counsel Marcia A. Widder, dated April
8, 1997; Order, dated April 23, 1997, in United States
v. Hall, No. 96¬10178 (5th Cir.).
3. As required by the CJA, I have been Mr. Hall’s
attorney since that time.1 Mr. Hall’s case was the first
1

See 18 U.S.C. § 3599(e) (“[E]ach attorney so appointed shall
represent the defendant throughout every subsequent stage of
available judicial proceedings, including . . . all available post-

57a
capital case (of many) to which I was appointed, and
it was the first case I briefed and argued in a federal
circuit court. Essentially, I cut my legal teeth working
on Mr. Hall’s behalf.
4. In May 1999, after Mr. Hall’s direct appeal had
concluded, the district court appointed me and Robert
C. Owen, an experienced capital habeas litigator
working in Texas, to represent Mr. Hall in habeas
corpus proceedings brought under 28 U.S.C. § 2255.
See United States v. Hall, Nos. 4:94-cr-00121, 4:16-cv00391-Y (N.D.Tex.), Doc. 919. Mr. Owen and I have
served together as Mr. Hall’s lawyers ever since.
5. For many years following the conclusion of Mr.
Hall’s initial § 2255 proceedings in April 2007, he was
protected against execution by a preliminary
injunction entered with the government’s consent in
litigation challenging the government’s lethal
injection protocol. See Roane v. Barr, No. 19-mc-145,
2020 U.S. Dist. LEXIS 171732, at *7-8 (D.D.C. Sept.
20, 2020). That injunction remained in place for the
next thirteen years, in large measure due to the
government’s delay in developing an execution
protocol after announcing, in 2011, that the drugs
required by the 2008 Execution Protocol had become
unavailable. Id.
6. On September 20, 2020, the district court judge
in Roane denied relief on most of the claims still
pending in the lethal injection lawsuit and lifted the
conviction process, together with applications for stays of
execution and other appropriate motions and procedures, and
shall also represent the defendant in . . . proceedings for
executive or other clemency as may be available to the
defendant.”). See, e.g., Harbison v. Bell, 556 U.S. 180, 186 (2009).

58a
preliminary injunctions that had protected Mr. Hall
and six other condemned men against execution. Ten
days later, on September 30, 2020, the government
gave Mr. Hall notice that it intends to execute him on
November 19, 2020.
7. Although the government’s notice triggered a
30-day deadline to file Mr. Hall’s clemency petition
and an additional 15-day period in which to file any
supporting evidence, see 28 C.F.R. § 1.10(b), it is
impossible for counsel to prepare an adequate
clemency application, or to conduct other necessary
investigation in Mr. Hall’s case, given the
circumstances in which we all find ourselves. For
reasons it has not disclosed, the federal government
decided it wanted to execute Mr. Hall while the entire
Nation, indeed, the entire world, is battling a global
pandemic caused by a highly infectious, potentially
deadly virus. The not-insignificant risk of catching
COVID-19 makes it impossible for me and my cocounsel to conduct the work that is necessary at this
stage of proceedings.
8. As the Court no doubt is aware, COVID-19 is a
dangerous, highly contagious, airborne disease that
can cause severe illness; long-term debilitating
damage to numerous systems in the body; and, too
often, death. Frankly, it is unconscionable that the
federal government seeks in the midst of a national
health crisis to conduct executions, which by their
nature involve crowding numerous strangers from all
over the country into a small room to witness the
government extinguishing the condemned man’s life.
9. I am familiar with what it is like to have a
potentially deadly contagious disease. Three decades
ago, before I attended law school, I was living

59a
essentially hand-to-mouth in New York City, taking
film production classes at The New School and doing
odd jobs in between classes and film-making. When I
became ill, I was uninsured and went to the
emergency room at the city’s public hospital, Bellevue
Hospital. I was admitted and hospitalized there for
eighteen days. After several days of testing and
treatment with broad-based antibiotics, I was
diagnosed with tuberculosis which, at the time, was
making a resurgence in New York City. Even after
eighteen days of treatment, I was allowed to be
discharged from the hospital only because I was able
to isolate in my apartment in Brooklyn because my
roommate was able to stay elsewhere.
10. Following my hospital stay, I underwent
months of chemotherapy treatment, consisting of a
cocktail of antibiotics: pyrazinamide, rifampin,
isoniazid. Because I could not work while I was sick
and contagious, I ended up on welfare – a step that
prompted me to apply to law schools for the following
year. Although I recovered over six months of
treatment, for many years afterward, whenever I had
a bad bronchial infection or cough, I would become
concerned about a relapse because it was my
understanding that treatment did not mean my
tuberculosis could not return. My concern was not
specifically that I would become ill, but the possibility
that I would infect someone else with this terrible
illness.
11. I report this for two reasons. First, I believe
that my history of tuberculosis, coupled with other

60a
health conditions, 2 makes me more susceptible to
having a severe case of COVID-19 and thus at risk for
serious illness and potentially death. 3 I accordingly
2

I am a former smoker of many years, which puts me at higher
risk
of
severe
illness
from
COVID-19.
See
https://www.cdc.gov/coronavirus/2019-ncov/need-extraprecautions/people-with-medical-conditions.html#smoking.
I
am also 59 years old and have a body-mass index of 27.4, factors
that may increase the risk of severe complications from COVID19. See https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/olderadults.html;https://www.cdc.gov/coronavirus/2019ncov/need-extra-precautions/people-with-medicalconditions.html#obesity. As the CDC has emphasized, “[i]t is
especially important for people at increased risk of severe illness
from COVID-19, and those who live with them, to protect
themselves
from
getting
COVID-19.
https://www.cdc.gov/coronavirus/2019-ncov/need-extraprecautions/older-adults.html.
Moreover, some treatments for severe COVID-19, such as the
use of steroids to prevent or cure the “cytokine storm” (or
immune-system overdrive) that is associated with COVID-19
mortality, may put me at risk of a resurgence of tuberculosis. See,
e.g., Murphy, RN, MSN, NP-C, Bernardo, MD, Patient education:
Tuberculosis (Beyond the Basics) - UpToDate at 2/9 (last updated
March 6, 2020) (“Reactivation TB may occur if the individual’s
immune system becomes weakened and no longer is able to
contain the latent bacteria” and can occur in people “who take
medications that weaken the immune system, such as . . .
steroids”),
available
at
https://www.uptodate.com/contents/tuberculosis-beyond-thebasics.
3

I attempted to discuss this matter with my primary care
physician of the past eight years and anticipated submitting a
letter from him explaining my medical history and conditions,
and any increased risk of harm from COVID-19. I learned,
however, that my doctor recently suffered a stroke, and as a
result is currently on disability and unable to consult with me. I
also sought to obtain copies of my medical records, but neither

61a
have been careful to minimize my contact with other
people during the pandemic, and to take precautions
when I am forced to venture out of my home (i.e.
wearing a mask, carrying and using hand sanitizer,
washing my hands frequently and especially upon my
return home from my occasional medical
appointments or trips to the store). My office
transitioned to remote work on March 13, 2020, and
since then, I have only been to the office on three
occasions. In May, I participated in a telephonic oral
argument in the Eleventh Circuit Court of Appeals
from my office (which was empty, save for the director
of my office, who stayed in a separate room for the
argument). I was briefly at the office on two other
occasions, once to find records that were not digitized
and only stored at the office, and once to pick up a
jump drive containing case material I needed to work
from home. I have otherwise worked exclusively from
my house while overseeing my daughter’s remote
schooling. My colleagues primarily work remotely as
well. Per office policy, I have not conducted any inperson investigation since the pandemic, and I am not
permitted to travel on an airplane for work until
further notice. The prison where my Georgia clients
are housed has suspended all visitation, including

Bellevue Hospital nor Tulane Student Health have those records
any longer and time constraints imposed by the current
execution schedule prevent me from obtaining New York
Medicaid records for purposes of this declaration. Nor is there
time for me to seek out a pulmonologist to provide the Court a
timely report.

62a
legal visitation, since March 12, 2020, and I have not
been to any prison since the pandemic began.4
12. My other reason for mentioning my past history
of tuberculosis is my particular concern with the risk
of infecting others with a potentially deadly illness, in
particular my 12-year-old daughter SW. I am my
daughter’s only parent. I adopted her as a single
woman when she was born and am the only
immediate family she has ever known. I have no other
family in Atlanta and my closest brother
(geographically) has medical and current living
conditions that would preclude him for the foreseeable
future from taking care of my child. Moreover, SW and
I live in a small house in Atlanta. It would be nearly
impossible to effectively quarantine from my child in
the event I had to travel for my job and thereby
become exposed to the coronavirus.
13. As set forth in a letter from my child’s treating
pediatrician, such quarantining would be essential
were I to travel to Texas, Indiana, or other locations
to perform work on Mr. Hall’s behalf because my
daughter has a health condition that puts her at
significantly greater risk of serious illness should she
be exposed to COVID-19. For the sake of my
daughter’s privacy, that letter is being submitted
under seal.
4

I accepted employment with the Georgia Resource Center
eight years ago with the understanding that I would be
permitted to continue to work on Mr. Hall’s case during my off
hours, and I have been using accumulated vacation time to work
on his case since he received notice of his execution. Though my
office does not represent Mr. Hall, I nonetheless thought that its
policies with respect to the pandemic relevantly reflect the
conditions where I live.

63a
14. Mr. Hall has the right to counsel to represent
him in “all available post-conviction process, together
with applications for stays of execution and other
appropriate motions and procedures, and in . . .
proceedings for executive or other clemency as may be
available to the defendant.” 18 U.S.C. §3599(e). If the
current execution date holds, accordingly, I will be
forced to chose between protecting my health and the
health of my 12-year-old daughter, and conducting the
type of work I know as an experienced capital defense
lawyer is necessary to competently represent Mr.
Hall. That work would require in-person interviews
with numerous witnesses, including three of Mr.
Hall’s co-defendants who testified against him at trial
in exchange for favorable treatment from the
government and who, at the time of Mr. Hall’s initial
habeas proceedings, were still incarcerated for their
roles in the crimes and unlikely to be forthcoming.
15. I should not have to choose between doing my
job in a professional and competent manner, for a
client who deserves my unconflicted representation,
and risking either my life or the life of my child. One
path risks making my child an orphan, or worse,
killing her. The other creates a situation where I have,
in essence, abandoned a client to whom I have devoted
nearly a quarter-century of faithful professional
service, and who remains urgently in need of my
assistance. See, e.g., Christeson v. Roper, 574 U.S. 373
(2015) (recognizing defendant’s right to counsel under
18 U.S.C. § 3599(e), to conflict-free counsel). It is
indefensible to be put in that position simply so that
the government can rush to carry out an execution
that it indifferently delayed for more than a decade by
its own inaction.

64a
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on November 2, 2020.
/s/ Marcia A. Widder
Marcia A. Widder

